          Office of Inspector General
Corporation for National and Community Service




   Audit of Corporation for National Service
     Grant Numbers 440A001112, 13 & 14
                      to
    Baltimore County Department of Aging
              Towson, Maryland

       OIG Audit Report Number 02-05
              April 27,2001




              Financial Schedules
                      and
         Independent Auditor's Reports

                 For the Period
     October 1, 1997 to September 30,2000




                  Prepared by:
       Leonard G. Birnbaum and Company
          Certified Public Accountants
             6285 Franconia Road
          Alexandria, Virginia 223 10

  Deliver Order S-OPRAQ-99-D-0020-CNS-07
                                                                                    CORPORATION
                               Office of Inspector General                          FOR NATIONAL
                     Corporation for National and Community Service
                            OIG Audit Report Number 02-05                           G ( s E R V 1 C E




                         Audit of Corporation for National Service
                           Grant Numbers 44OAOO 1/ 12, 13 & 14
                                          to the
                          Baltimore County Department of Aging
                                    Towson, Maryland


The Office of Inspector General engaged L. G. Bimbaum and Company, LLP to audit costs
claimed by the Baltimore County Department of Aging under CNS grant numbers
440A001112, 13 & 14. The audit covered the period October 1, 1997 through September 30,
2000 and included procedures to determine if costs claimed in financial reports prepared by
the Bureau were allowable, internal controls were adequate to safeguard Federal funds, and
whether the Bureau had policies and procedures adequate to ensure compliance with Federal
laws, applicable regulations and award conditions.

As a result of the work performed, the auditors questioned none of the costs claimed. They
noted one compliance issue that was resolved prior to issuance of this final audit report.
CNS OIG reviewed the report, with which we concur, and the work papers supporting its
conclusions. The Corporation's and the Baltimore County Department of Aging's responses
to this report are discussed within the report and included in their entirety as Appendices A
and B, respectively.




                                                                               Inspector General
                                                                               1201 New York Avenue, NW
                                                                               Washington, DC 20525
                                         Office of Inspector General
                               Corporation for National and Community Service
                                  Audit of Corporation for National Service
                                     Grant Nos. 440A001112, 13 & 14 to
                                   Baltimore County Department of Aging

                                                       Table of Contents




REPORT SUMMARY AND HIGHLIGHTS:

        Summary of Audit Results.. ...........................................................................                    1

        Purpose and Scope of Audit ...........................................................................                    1

        Background ....................................................................................................           2


INDEPENDENT AUDITOR'S REPORT..................................................................                                    3


FINANCIAL SCHEDULES:

        Exhibit A - Schedule of Award Costs - Fiscal Years 1998-2000 ..................                                           6

        Exhibit A-1 - Schedule of Award Costs - Fiscal Year 1998 ..........................                                       7

        Exhibit A-2 - Schedule of Award Costs - Fiscal Year 1999..........................                                        8

        Exhibit A-3 - Schedule of Award Costs - Fiscal Year 2000 ..........................                                       9

        Notes to Financial Schedules ......................................................................                       10


INDEPENDENT AUDITOR'S REPORTS ON COMPLIANCE AND
 INTERNAL CONTROL OVER FINANCIAL REPORTING ................................                                                       12


RESPONSES TO REPORT
         CNS Grants Management ..............................................................................             Appendix A

         Baltimore County Department of Aging ........................................................ Appendix B
REPORT SUMMARY AND HIGHLIGHZ
                             LEONARD                G.     BIRNBAUM               AND       COMPANY, LLP
                                                      CERTIFIED     PUBLIC     ACCOUNTANTS
                                                                WASHINGTON OFFICE

                                                               6285 FRANCONIA ROAD

                                                            ALEXANDRIA. VA 22310-2510
                                                                         -
                                                                    (703) 922-7622

                                                                 FAX: (703) 922-8256
LESLIE A. LEIPER                                                                                                               WASHINGTON. D.C.
LEONARD G. BIRNBAUM                                                                                                        SUMMIT, NEW JERSEY
DAVID SAKOFS                                                                                                              LOS ALTOS. CALIFORNIA
CAROL A. SCHNEIDER                                                                                                        SAN DIEGO. CALIFORNIA
DORA M. CLARKE


MEMBERS OF THE
AMERICAN INSTITUTE
     OF CPA'S


        Inspector General
        Corporation for National Service


        This report is issued under an engagement to audit the costs claimed by the Baltimore County
        Department of Aging for its Retired Senior Volunteer Program for the period October 1, 1997
        t'hrough September 30,2000. It focuses on the audit of claimed costs and testing of compliance with
        Federal laws, applicable regulations and w a r d conditions and relevant internal ccntrols.

        ON audit covered the funds awarded by the Corporation for National Service under Grant Nos.
        440A001i12, 13 C1: 14 for the Retired Smior Volunteer Program and disclosed the following:

                                                 SUMMARY OF AUDIT RESULTS

                                                                                                                 Percentage
                                                         Period                        Amount                 of Award Budget
                   Award Budget                       16/97 - 09100                  S  195,447
                   Claimed Costs                      10197 - 09/00                  $ 186,028                     95%
                   Questioned Costs                   10197 - 09/00                  $        0                      -

                                                PURPOSE AND SCOPE OF AUDIT

        Our audit covered the costs claimed under Grant Nos. 440A001112, 13 & 14 during the period
        October 1, 1997 through September 30,2000, the award period. The objectives were to determine
        whether:

                   1.      Financial reports prepared by Baltimore County Department of Aging presented
                           fairly the financial condition of the award;

                   2.      The internal controls were adequate to safeguard Federal funds;




                        MEMBER   OF T H E D I V I S I O N F O R C P A F I R M S , PRIVATE C O M P A N I E S
                                                                                                         PRACTICE    SECTION
                                      AMERICAN       INSTITUTE      OF   CERTIFIED       PUBLIC   ACCOUNTANTS
Inspector General
Corporation for National Service


       3.      Baltimore County Department of Aging had adequate procedures and controls to
               ensure compliance with Federal laws, applicable regulations and award conditions;

       4.      The award costs reported to the Corporation were documented and allowable in
               accordance with the award terms and conditions; and

       5.      Baltimore County Department of Aging had adequate procedures and controls to
               track and report progress toward achievement of the program objectives.

We performed the audit in accordance with generally accepted auditing standards, and Government
Auditing Standards (1994 Revision) issued by the Comptroller General of the United States. Those
standards required that we plan and perform the audit to obtain reasonable assurance about whether
the amounts claimed against the award, as presented in the schedule of award costs (Exhibit A), are
free of material misstatement. An audit includes examining, on a test basis, evidence supporting the
amounts and disclosures in Exhibit A. An audit also includes assessing the accounting principles
used and significant estimates made by the auditee, as well as evaluating the overall financial
schedule presentation. We believe our audit provides a reasonable basis for our opinion.


                                         BACKGROUND

The Corporation awarded Grant Numbers 440A001112, 13 & 14 in the amount of $195,447 for the
period October 1, 1997 through September 30,2000, to Baltimore County Department of Aging for
its Retired Senior Volunteer Program to (1) provide in-home services to homebound elderly clients,
(2) monitor daily attendance and offer counsel, support and encouragement to chronic truants, (3)
tutor elementary school students, (4) enrich the lives of older adults by providing creative and
challenging retirement options, (5) recruit volunteers to implement the Schoolyard
ReforestationIWildlife Habitat Program with local schools, and (6) recruit senlor volunteers to help
with homework, organize self-esteem building groups and coach after-school sports.
                            LEONARD          G.   BIRNBAUM             AND     COMPANY, LLP
                                              CERTIFIED   PUBLIC    ACCOUNTANTS
                                                     WASHINGTON OFFICE

                                                     6285 FRANCONIA ROAD

                                                   ALEXANDRIA, VA 22310-2510



                                                          (703) 922-7622

                                                       FAX: (703) 922-6256
LESLIE A. LEIPER                                                                                         WASHINGTON, D.C.
LEONARD G. BIRNBAUM                                                                                    SUMMIT, NEW JERSEY
DAVID SAKOFS                                                                                           LOS ALTOS. CALIFORNIA
                                                                                                    SAN DIEGO, CALIFORNIA
CAROL A. SCHNEIDER                        INDEPENDENT AUDITOR'S REPORT
DORA M. CLARKE


MEMBERS OF THE
AMERICAN INSTITUTE
     OF CPA'S


        Inspector General
        Corporation for National Service

        We have audited the costs incurred by Baltimore County Department of Aging for its Retired Senior
        Volunteer Program, listed below. These costs, as presented in the Schedule of Award Costs (Exhibit
        .4), are the responsibility of Baltimore County Department of Senior Services' management. Our
        responsibility is to express an opinion on the Schedu!e based on our audit.

                   Grant Numbers                     Award Period                       Audit Period

                   440A0011'12, 13 & 14            October 1, 1997                    October 1. 1997
                                                         to                                 to
                                                  September 30,2000                  September 30, 2000

        We conducted our audit in accordance with generally accepted auditing standards, and Govertlrtrerzt
        Atldliing St~ul~lilr~ls
                           (1 994 Revision). issued by the Comptroller General of the United States. Those
        standards require that we plan and perform the audit to obtain reasonable assurance about whether
        the financial schedules are free of material miss~atement.An audit includes examining, on a test
        basis, evidence supporting the amounts and disclosures in the financial schedules. An audit also
        includes assessing the accounting principles used and significant estimates made by management,
        as well as evaluating the overall financial schedule presentation. We believe our audit provides a
        reasonable basis for our opinion.

        The accompanying financial schedules were prepared for the purpose of complying with the
        requirements of the award agreement as described in Note 1, and are not intended to be a complete
        presentation of financial position in conformity with accounting principles generally accepted in the
        United States of America.




                      MEMBER   OF T H EDIVISION F O R CPA FIRMS. PRIVATE COMPANIES PRACTICE    SECTION
                                   AMERICAN   INSTITUTE O F CERTIFIED PUBLIC ACCOUNTANTS
Inspector General
Corporation for National Service

In our opinion, the Schedule of Award Costs (Exhibit A) referred to above presents fairly, in all
material respects, the costs claimed for the period October 1, 1997 to September 30, 2000, in
conformity with the award agreements.

This report is intended for the information and use of the Office of the Inspector General,
Corporation for National Service, the management of the Corporation, and Baltimore County
Department of Aging. However, this report is a matter of public record and its distribution is not
limited.

                                           -&.A/+%&
                                             Leonard G. Bimbaum and Company



Alexandria, Virginia
April 27,2001
FINANCIAL SCHEDULES
                                                                                                          Exhibit A
                                             Baltimore County Department of Aging
                                Corporation for National Service Award No. 44OAOOl1'12, 13 & 14
                                                    Schedule of Award Costs
                                          From October 1, 1997 to September 30, 2000

                                                                                               Approved   Cla~med
     Cost C a t e p o r ~                                                                       Budset    Costs

Personnel Services:
  RSVP Director
  Secretary
  RSVP Coordinator
Subtotal

Fringe Benefits:


Other Expenses:
  Trabcl, Tolls & Piirking
  Professional Services
  Service Contracts
  Postage and Supplies
  Data Processing Eqnipment
  Reprod~cticn
  lnil;~~ct
  O t t w ,.\.llowable Suppxt
Subtotal

Vol~:n:eerExpenscs:
  Recognition
  Trav,.~
   Mca'.;
   Otkl.
Sl!t.to:al



Less Local C ~ s Contrmout~on
                 h

TOTAL FEDERAL FUNDS

Total Match

TOTAL PROJECT COSTS




                                The acconlpanying notes arc an Integral part of this financial schedule
                                                                                                      Exhibit A-I
                                         Ba!t~moreCounty Department of Agrng
                                 Corporation for National Service Award No. 440AOO 11 I2
                                                 Schedule of Award Costs
                                      From October I, 1997 to September 30, 1998



                                                                                        Approved     Claimed
     Cost Category                                                                      Budqet        Costs

Personnel Services:
  RSVP D~rector
  Secretary
  Coordinators
Subtotal

Fringe Benetits:

Other Expenses:
  Travel, Tolls & Parking
  Professional Services
  Postage and Supplies
  Regr-oduct~or:
Sublct~l




TOTAL PROJECT COSTS




                            The accompanying notes are an ~ntegralpart of t h ~ sfinanc~alschedule
                                                                                                        Exhibit A-2
                                            Fkdtimore County Department of Agng
                                    Corporation for National Service Award KO.440A00 1113
                                                    Schedule of Award Costs
                                         From October 1, 1998 to September 30, 1999


                                                                                          Approved     Cla~med
     Cost Category                                                                        Budset        Costs

Personnel Services:
  RSVP Director
  Secretary
  RSVP Coordinator
Subtotal

Fringe Benefits:

Other Expenses:
  Travel, Tolls & Parking
  Professional Services
  Service Contracts
  Postage and Supplies
  Reproduct~on
  Indirect
Subtotal




51.1btota!

L.css: Local Cash Corltribution

T W A L FEDERAL FUNDS



TOTAL PROJECT COSTS




                              The accompanying notes are an integral part of this financ~alschedule.
                                             B ~ l t ~ n i oCounty
                                                            re     Department of Agmg
                                    Corporation for Nat~onalServlce A:vard No 440AOO 11 14
                                                       Schedule of Award Costs
                                         From October 1, 1999 to Septeniber 30, 2000


                                                                                         Approved      Claimed
      Cost Category                                                                       Budeet        Costs

Personnel Services:
  RSVP Director
  Secretary
  Coordinators
Subtotal

Fringe Benefits:

Other Expenses
  Travel, Tolls & Parklng
  Professional Serv~ces
  Postage and Supplles
  Data Processing Equ~pment
  Rcproduction
  Other 4ilowable 5uppo:t
S~ibtotnl



L e s . L o c d Cash Contrtbut~o~




TOT.91, PRO?ECT COSTS




                             The accompanying notes are an Integral part of this financial schedule.
                    Baltimore County Department of Aging
       Corporation for National Service Award No. 440A001112, 13 & 14
                         Notes to Financial Schedules


Summary of Significant Accounting Policies

Accountine Basis

The accompanying financial schedules, Exhibits A, A-1, A-2, and A-3 have been prepared
from the books of account of the Baltimore County Department of Aging. The basis of
accounting utilized differs from generally accepted accounting principles. The following
information summarizes these differences.

A.     Eauity

       Under the terms of the award, all funds not expended according to the award
       agreement and budget at the end of t!le award period are to be returned to :he
       Corporation for National Service. Therefore, Baltimore County Department of Aging
       does not maintain any equity in the award and any excess of cash received from the
       Corporation over final expenditures, excluding any interest retained in accordance
       with OMB Circular A-1 10, is due to the Corporation.



       Equipment is charged to expense in the period during which it is purchased instead
       of being recognized as an asset and depreciated over its useful life.

       Tillt: to equipment acquired under Federal grants rests in Baltimore County
       Department of Aging while used in the program for which it is purchased or in other
       hture authorized programs. However, the Corporation has a reversionary interest in
       the equipment. Its disposition, as well as the ownership of any proceeds therefrom,
       is subject to Federal regulations.

C.     Supplies

       Minor materials and supplies are charged to expense when purchased.

Income Taxes

Baltimore County Department of Aging is a local government entity in the State of Maryland
and is therefore exempt from Federal and state income taxes.
             INDEPENDENT AUDITOR'S REPORTS

                          ON
COMPLIANCE AND INTERNAL CONTROL OVER FNANCIAL REPORTING
                            LEONARD              G . BIRNBAUM                    AND   COMPANY, LLP
                                                   CERTIFIED     P U B L I C ACCOUNTANTS

                                                             WASHINGTON OFFICE

                                                            6285 FRANCONIA ROA3

                                                         ALEXANDRIA. VA 22310-2510
                                                                    -
                                                                (703) 922-7622

                                                              FAX: (703) 922-8256
LESLIE A. LEIPER                                                                                                               WASHINGTON. D.C.
LEONARD G. BIRNBAUM                                                                                                        SUMMIT. NEW JERSEY
DAVID SAKOFS                                                                                                              LOS ALTOS, CALIFORNIA
CAROL A. SCHNEIDER                                                                                                        SAN DIEGO, CALIFORNIA
DORA M. CLARKE


MEMBERS OF THE
AMERICAN INSTITUTE
    OF CPA'S




       Inspector General
       Corporation for National Service


                                     REPORT ON COMPLIANCE AND ON
                               INTERNAL CONTROL OVER FINANCIAL REPORTING


       We have audited the Schedule of Award Costs which summarizes the costs claimed by the Baltimore
       County Department of Aging under the Corporation for National Service (Corporation) grant awards
       listed below, and have issued our report thereon dated April 27,200 1.

                     Grant Number                         Award Period                              Audit Period

                   440A001i12, 13 & I 4                October 1, 1997                          October 1, 1997
                                                            to                                        to
                                                     September 30,2000                         September 30,2000

       We conducted our audit in accordance with generally accepted auditing standards, and Government
       Auditing Stun~z'nrcls(1994 Revision), issued by the Comptroller General of the United States.

        Compliance

       As part of obtaining reasonable assurance about whether the Baltimore County Department of
       Aging's financial schedules are free of material misstatement, we performed tests of compliance with
       certain provisions of laws, regulations, and terms and conditions of the grant award, noncompliance
       with which could have a direct and material effect on the determination of allowable amounts.
       However, providing an opinion on compliance with those provisions was not an objective of our




                      MEMBER   OF   T H E D I V I S I O N F O R CPA F I R M S , PRIVATE C O M P A N I E S PRACTICE   SECTION
                                    AMERICAN           I N S T I T U T E OF C E R T I F I E D PUBLIC ACCOUNTANTS
Inspec tor General
Corporation for National Service

audit, and accordingly, we do not express such an opinion. The results of our tests disclosed one
instance of noncompliance that is required to be reported under Govenznzent Auditing Staizclarcls and
which is described below.

Internal Control Over Financial Reportins

In planning and performing our audit, we considered the Baltimore County Department of Aging's
internal control over financial reporting in order to determine our auditing procedures for the purpose
of expressing our opinlon on the financial schedules and not to provide assurance on the internal
control over financial reporting. Our consideration of the internal control over financial reporting
would not necessarily disclose all matters in the internal control over financial reporting that might
be material weaknesses. A material weakness is a condition in which the design or operation of one
or more of the internal control components does not reduce to a relatively low level the risk that
misstatements in amounts that would be material in relation to the Schedule of Award Costs being
audited may occur and not be detected within a timely period by employees in the normal course of
performing their assigned functions. We noted no matters involving the internal control over
finarcial reportifig and its operation that we consider to be material weaknesses. We found one
potential con~pliaicematter that was resolved prior to the issuance of this final report; specifically
infonmtion provided during the audit indicated that the Baltimore County Department of Aging
providzd RSVP participants with only two of the three types of required insurance coverage. Code
of Federal Regulations (CFR) Title 45, Chapter XXV, Section 2553.43, requires RSVP volunteers
to be provided w ~ t haccident, personal liability, and, when appropriate, excess automobile liability
insurance. Volu,l:eers were said to be covered for comprehensive general liability and excess auto,
but not by accident insurance.

Baltimore County Department of A g i n ~Response

In its response to a draft of this report, the Department indicated that the Baltimore County
Government, through its self-insurance fund, provides the three types of required coverage as
specified by the Corporation for National Service. That coverage includes comprehensive liability,
excess automobile insurance and Worker's Compensation benefits.

Auditor's Response

The Director, Baltimore County Department of Aging explained that, after receiving the draft report,
an inquiry was made to the County's insurance staff who advised that the coverage was not limited
to that set forth in documentation presented to us during the audit, but rather also included Worker's
Compensation benefits. We accept this explanation.
Lnspector General
Corporation for National Service

This report is intended for the information and use of the Office of the Inspector General,
Corporation for National Service, the management of the Corporation, and Baltimore County
Department of Aging. However, this report is a matter of public record and its distribution is not
limited.

                                          &A-

                                             Leonard G. Birnbaum and

Alexandria, Virginia
April 27, 2001
                      Appendix A


Response of the Corporation's Office of Grants Management
                                                                                           CORPORATION
                                                                                           FOR N A T I O N A L




MEMORANDUM

DATE:         September 25,2001

TO:           Luisq S. Jqrdqn,,Inspector General

FROM:
              Atlantic Service Center

SUBJECT:      Comments on OIG Draft Audit Report 01-10, Audit of the Corporation 's
              Grant to the Baltimore County Department of Aging


Thank you for the opportunity to review the draft report of your audit of the
Corporation's grant to the Baltimore County Department of Aging. The audit report cited
one compliance finding - that the grantee provided RSVP participants with only two of
the three types of required insurance coverage. Specifically, volunteers had been
covered for comprehensive general liability and excess auto, but not covered by accident
insurance. However, my review disclosed that in each of the years audited the grantee
budgeted for all of the required insurance. The accident coverage was provided under the
County's blanket policy. Therefore, the volunteers were, in fact, fully covered.

cc:     William Anderson, Deputy Chief Financial Officer
        Peg Rosenberry, Director, Grants Management




                                                                                           801 Arch Street
                                                                                           Suite # 103
                                                                                           Philadelphia. PA 19107-2416
                                                                                           Tclephonc 215-597-9972
                                                                                           Fax 215-597-4933


                                                                                           W i g 'Zbings Done.
                                                                                           AmeriCorps, National Serv~ce
                                                                                           Learn and Serve America
                                                                                           National Senior Service Corps
                  Appendix B


Response of Baltimore County Department of Aging
                                                                                                       61 1 Central Avenue
                                                                                                       Towson, Maryland 2 1204
                             Baltimore County                                                                 4 10-887-2594
                             Department of Aging                                                       Fax: 410-887-2159
                                                                                                       TDD: 4 10-887-3787

                                                                                                September 19,200 1

                  Office of the Inspector General
                  120 1 New York Avenue, NW
                  Washington, DC 20525

                  Dear Sir,

                  This letter is in response to the Independent Audit prepared by Leonard J. Birnbaum and
                  Company Certified dubiic Accountants of the Corporation for Nationai Service Grant
                  numbers 44OAOO 1/12,13 and 14 of the Baltimore County Department of Aging for the
                  period October 1, 1997 to Sept. 30, 2000.

                  After careful review of the report I noted that one instance of noncompliance was
                  disclosed: "Baltimore County Department of Aging did not provide RSVP participants
                  with accident insurance coverage required by program regulations".

                  The recommendation:
                  "We recommend that Baltimore County Department of Aging provide the accident
                  insurance coverage as required by CFR 45 Chapter XXV Section 2553.43 and the RSVP
                  Operations Handbook".

                  Baltimore County Department of Aging Response

                  In response to that disclosure I submit the following documentation. Baltimore County
                  Government, through its self-insurance fund, provides the three types of required
                  insurance coverage as specified by the Corporation for National Service. That coverage
                  includes comprehensive liability, excess automobile insurance and Worker's
                  Compensation Benefits. - (See attachment # 1
                  As noted, Worker's Compensation coverage is available to all county volunteers,
                  including those registered as RSVP volunteers, and provides medical treatment coverage
                  for accidental injury during travel between home and the volunteer service site and while
                  attending project sponsored activities.

                  Baltimore County's self insurance fund was established on July 1, 1986 to "provide
                  compensation to employees of the county, employees of the board of education, the board
                  of library trustees, volunteer workers and members of boards and commissions, while
                  acting within the scope of their duties". - (See Attachment #2, Baltimore County Code
                  Article VI Section 15-191)



                   Census 2000                 F o r You, F o r B a l t i m o r e C o u n t y            Census 2000

                                                                                                         &d      e ~ os1L
@   Prmted w ~ t hSoybean Ink
      o n R e c y c l e d ~aw1
                                     Come visit the County's Website at www.co.ba.md.us
Also to "pay on behalf of the county and the board of library trustees any sum which the
county and the trustees may be legally obligated to pay for liability claims, including but
not limited to personal injury and/or property damage and also to pay on behalf of
employees of the county and the board of library trustees any sum which said employee
may become legally obligated to pay for liability claims, including but not limited to
personal injury and or property damage. . ."

As noted earlier, Baltimore County's self-insurance fund was established in July 1986.
Baltimore County Department of Aging became the sponsor of RSVP for Baltimore
County in November 1986. The Department of Aging's RSVP volunteers have been
covered by and continue to be covered by three kinds of insurance coverage as required
in the Corporation for National Service Regulations.

A copy of the Baltimore County Department of Aging Certificate of Insurance is
provided.

I hope that the attached documents provide sufficient documentation to indicate that
RSVP volunteers in Baltimore County are provided with accident insurance coverage.

Sincerely,




                        /
Director
Baltimore County Department of Aging




cc: Jerry Yates
                    INSURANCE COVERAGE - VOLUNTEERS


As provided by the Department of Aging's insurance policy, RSVP volunteers are
covered by the following types of insurance:

   1. Comprehensive general liability

   2. Excess auto

   3. Worker's Compensation benefits


1. Liability insurance is that covering accidents caused by the negligence of volunteers
and damaging to participants, their property, the property of a privately owned center or
County-owned property.

The County provides comprehensive general and professional liability insurance. The
total liability for all damage and/or personal injury to which the coverage applies in a
single incident, whether an individual claim or in aggregate, is limited to $500,000 with
$100,000 for property damage. An excess judgment over these limits for which the
County is found liable is paid from the County general contingency fund. Coverage does
not extend to malicious or intentional actions not in good faith or to actions which are
not withm the scope of the employee's or volunteer's responsibilities or involving any
activity not approved by the Department of Aging.

Baltimore County will provide legal counsel for volunteers who have become parties to
civil suits arising out of the performance of duties exercised in good faith within the scope
of their responsibilities.

In the event of an incident which may involve the possibility of a claim against liability
insurance or a potential lawsuit, a full report of the incident must be filed with the
Department of Aging Central Administration as soon as possible. An injured person has
up to three years to file a claim, or to sue, from the date of the alleged incident. If claims
are made or papers served, they must be forwarded immediately to the Department of
Aging Administration.

If an incident occurs on a site not owned by the County and such incident is not caused
by a County volunteer, the insurance of the site would take precedence. For insurance
purposes it is imperative that participants and volunteers be clearly listed at the center as
different procedures are applicable to each.

2. Excess auto insurance begins where the car owner's policy leaves off. The private
insurance carrier of the volunteer is the primary insurer and only if the insurance is
insufficient will the County coverage apply. County insurance does not take the place of
the individual's own coverage. If an accident takes place and a volunteer, as driver, is
declared negligent, passengers in the car who were injured would have the option of
bringing suit against the County and the driver. Each suit would stand on its own merits.

County volunteers driving County-owned vehcles on official business are fully covered
by the County for insurance purposes. Any damage caused by the volunteer to the
vehicle will be repaired and charged to the individual department's budget. If the car is
damaged due to negligence while not on official business, it is repaired by the County
and subrogated by the County against the driver. The money regained is placed in the
General Fund.

In the case of any vehicular accident, the driver must make no statement to a third party
claimant, such as "the County will pay" etc., but refer to the Office of Law after getting
as much information as possible. Inform the claimant that the County Solicitor will be in
touch with them. The Department of Aging Central Administration will receive all such
information and will forward it to the appropriate offices.

3. Workers' Compensation coverage is available to all County volunteers. Baltimore
County is NOT among the 11 Maryland counties excluding volunteers from Workers'
Compensation coverage under State law. This coverage extends to medical treatment
only. In order to assure County coverage, accidents should be reported to the
Community Supervisor and the Claims Management Unit at 410-887-8400.

For an injury to be covered by Workers' Compensation, it must arise out of and in the
course of the volunteer's duties and must satisfy the Maryland definition of an
"accidental injury". The supervisor of the injured volunteer must immediately contact
the Claims Management Unit regarding the preparation of an "Employer's First Report
of Injury" form. When treated by a physician or hospital for injuries sustained on the
job, the volunteer should have a copy of the bill sent directly to the Claims Management
Unit who will make a decision regarding compensability and inform the volunteer.
      Towson, Marpland         21204                        I


                                                         '1
m'13 TS TO mRmFlJ that Balt.Imom County, Mwylran                tho Board of Libra
Trustees and C3mxunity College Trustees of Brlt                  -ty,    -land,
their respective gmplopes are insurea thm&            th        elf Insurance F'unc
established by BaZtimore County cou~.cilall Wa.                 86 and to -the ext*
r-rd      by l a w end mere f u l l y aet forth in the          ts and -cia1
Proceedings Article, Section 5-4-01through 5-404,               notated Code  of
Maryland, and entitled *Localn Government Tort C1               s Act.   such cove1
applies t o liability f                  o              o        ly injury to thirc
pwties caused by the actions of eaid e ~ ~ l o p in    ~ e      ehe performance of
empwnt      -
The word "employsq" shall include:

     (a)   All employees of Baltimore County, ! m y l a         , the Board o f      LU
           Trustees of Baltimore Caunty, -lead,            a     -ity          Collegt
           Trustees of Baltlnrore County, M a r y l m d , u     ther elwtd or
           appointed, meinbirrs of Boards and r r a r i s a l   s, and volunteer o
           excluding volunteer fire aompanies, rhile            cting w i t h i n the a
 -         of the performance of their &ties ow beh             f of B a l t h m r e Coa
           Maryland, the Board of Library Trust-           a    Baltimrrre County,
           Maryland.

     (b) Any person as defined in Section l-2, Tit               1 of the Baltitm
         County Code, 1988, (the "Coden) for rhom               lt-re   County,
           Maryland, the Board of Library Txua+cw a             BPltinrrrn County,
           Har~land,ar the CFlsmarnity College TrrPste           of Bsltbcare bu
           Haryland, m y be obligated by writtm aqr             m t to provide
           l i a b i l i t y or property damage inswanes pu     rrant ta Section
           15-191(2-C) of the Code.
04/17/1991 ,14:15            14108873097                          OFFICE   OF BUDGET                             PAGE   04



                                            BALTIMORE C O W CODE


of major £infighting,ambulance and rescue equip-
ment; to finance land acquisition and construc-
tim costs, including architects' and engineers'
                                                           Sec. 16-191-Fuad established.
fees, necessary for e r p a d o n , enlargement, re-
pair, rehabrehabilitation,alteration and construction of
buildings and impmvernents, including the caats              There is hereby established a fund to be known
oi consixucting me- of aecese and extending                as the self insurance fund to:
utility qmbma provided such m t s are reamn-                   (1) Pmvide compensation to employees of the
ably neceasarg for                                                 county under the provisions of and as re
   (1) The proper and effective operatian of q d -                 quimd by AM, Code of Md. art. 101 The
        ified volunteer Sn, ambulance and rescue                   word "employees" shall be as defined in
      ampaniea operating in the coup^, and                         Ann. Code of Md. art. 101, and shall in-
                                                                   clude all emplgrees af the board of educa-
  (2) Corporate undertakings of those campa-                       tion, the bard of library trusteerr, volun-
      nies such aa (without bitation) training                     teer workem, and members of bards and
      &ma,      meethga, esdsmx, mpfezznces,                       cammiaeiow, while acting within the scope
      ~ ~ m m u p ieducational
                   ty         programs, dinners,                   oftheir duties. '
      bazaars, hmdraising eventa and other ac-
       tivities.                                               (2) Pay on behalf of the county and the b o d
(Bill No. 161-94,$4 1,2,12-8-94;
                               Bill No. 49-96,g                    Oflibrar~rtrPateesany sum which the county
9, 7-1-96)                                                        and the                 may become legally obli-
                                                                  gated to pay for liabiliw dnim.p, including
Sec. 18-162. Grant program administration                         but not limited to personal wury and/or
                                                                  property damage, and also to pay on behalf                  . A

                                                                                                                             f.
  All grants or other transfers made by the calmty
to the association shall be adminiatered by the
                                                                  of employees ofthe county and the board of
                                                                  library trustees any sum which said em-                I.. --*


association according to accepted principles of                   p10yeea may became legally obligated to
sound accounting and 6 s d management.                            pay fbr                claims, Muding but not
(BiU NO.161-94,$5 l, 2, 12-8-94)                                  limited to p e r a d injurg and/or property
                                                                  damage arising out of the performance of
                                                                  duties by said employees ia the course of
Sec. 16-163. Prohibited uee of grant pro-                         their employment and as required by law
             grsm tclnda                                          and more            set forth in the Am. Code of
  Grant program funds ahall not be used for                '
                                                                  Md., Caurts and Judiciai Raceduma arti-
                                                                  cle, 84 5 - 4 0 1 - 4 4 4 eatitled "LocalGoverrr-
operational e q e m m of the companies.
                                                                  ment Tort Claim Act." The word "employ-
(Bill NO.161-94, $4 l, 2, U-8-94)                                 ees," aa used in tbia subsecthi,shall include:
                                                                  a All elected and appointed officials of
Sec. 16-la. DiaaoIution of the grant              p-
                                                                       the county, hduding but not limited to
               gram.                                                   the couniy executive, members of the
                                                                       county council, and the sheriff of the
  If the &tal grant program is dissolved by the                        county.
county council besause the voiupteer go out of
existence or the county and the association deter                 b.   All employees of the county and ~e
mine that the grant program is no langet re-                           trmtees, whether elected or appointed,
quired, the moneys on hand and ail moneys due                          membem of boards and C0]9miSBions,
and o w i q at the time shall revert to the county.                    and volunteer workers,exdudkgmem-
(Bill No. 16l-94,$0 1.2.12-8-94                                        bers ofvolunteer lire companies, while
                                                                       actingwithin the scope oftheir employ-
                                                                       ment on behalf of the county and/or the
                                                                       tmstee8.


Sugp. No. LO
                                                      OFFICE OF BUDGET                              PAGE    05



                                                 FINANCE                                                g 15.221


        c.   Any person a defined in section 1-2 of         Sec. 16.194- Retentions.
             this Code for whom the county of the
             trustees may be obligated by writtan
                                                               The couaty shall psriodicaliy establish self h-
             agreement to prwide liability iasur-           surance retentions based on the anmty's past and
                                                            probable future cin;ma erperience and the avail-
             ma.
                                                            ability d pricing of excess insurance. The estab-
  (8)   The b d of cornmupity college trustees              lishment of self insurance retentions shell be
        for the county aud the hard of education of         determined by the dtectot of budget and b e e
      the county may elect to join the self insur-          in coPSUXtation with appmpxiata county agencies
      ance fund described in sub* (1)and                    and advisers.
      (2) o f t . section,'ip which case the term           (Code 1978, 5 %I=, Bill No. 141-93, 1993, 5 I;
      *employeenshall include employees o f said            BU NO. 69-95, 5 6, 7-1-96; Bili NO.49-46, 5 9,
      boards and the trustees, members and                  7-1-96)
      of5cem thereof while d g withia the
      scope of their duties or employmeat.                  Sec. 16196. Claims; excess coverage.
(Code 1978,g 2-1-31)
                                                              (a) The a c e of law shall be tesponsible for
Sec. 15192. MaPaging the fund.                              proceeeiag and investigating all claims fled and




                          -
                                                            shall be responsible for the review, settIement
  The director of budget and h m c e shall be               and/or trial of alX claims filed and far appnwai for
responsible for the managementof the b d , which            payment of BUCh claims, including apy award in
$bailindude the receipt of annual appropriations            contested claims.
by the county,inveatmeats, disbaraemearts against
approved claims as certMed by the a c e of law,               (b) The county may provide the necessary fuads
and the selection of the                                    for and the director of budget and finance shall be
(Code 1978,s 2-134; Bill No. 49-96, Q 9,7-1-96)             responsible far s s q ~ appropriate
                                                                                        g           erresa in-
                                                            eurance coverage when in fhe director's discretion
Sec. 16.193. Financing the fand.                            such insurance is available at a masonable rate
                                                            and cost to the county.
   Annually the county shall appropriate and pay            (Code 1978, 4 2-135; Bill No. 141-93, 1943, 8 g
to the fund aa amomt which is projected to                  Bill NO,69-95, Q 6, 7-1-95; Bill NO. 49-96, 5 9,
completely Md, on a present-value basis, all                7-1-96)
liabilities expected to occur an or aReT Jdy ,.I
1986,thmughtheupcomirrg~year.ThecountJI,
in addition, shall annually appmpriate foPda to
pay at least a portion of the outatanding unpaid
liability, as determined by the amuarial analygis
of January, 1986.At such time as the outatanding
unpaid liability has been funded, the applmpria-
tion procedure will be based an faading one
hundred (100) percent of the o ~ d i o liability
                                            g
(on a present value basis) of the fimd for di year,
including the projected upcomiugfiscal year. Tbe      (a)There is hereby established a special fund
amount of the m       e required W be based on      to be houm ag "gifts and grants rrpedai revenue
aaalyais af the c0upQ'a past ciajxus experience     fund" a d the procedure far adminiatering same
and probable future claima, including the timing    yoffuarrt to the authbrity contained in section
of psymeats, a d shall be determined Irg the        721 of the Charter.
dkector of budget and 5mnce in awultatim
yith apptopriate rmanty ageadea and adviserrn
('Code 1978, 4 2-133;Bill No. 141-93, 1993, § 1;
Bill No. 69-95, 3 6, 7-1-95; Bill No. 49-96, 9 9,
7-l-96)


Supp. Na 10                                           986                .d
